No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
FNU TANZIN, ET AL., PETITIONERS
v.
MUHAMMAD TANVIR, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage
prepaid, this 12th day of July, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 6765 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on July 12, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 12, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

Certificate of Service

Jennifer R. Cowan
Erol Gulay
Sandy Tomasik
Debevoise & Plimpton LLP
919 Third Ave.
New York, NY 10022
(212) 909-7445
jrcowan@debevoise.com
Ramzi Kassem
Naz Ahmed
CLEAR Project
Main Street Legal Services, Inc.
City University of New York School of Law
2 Court Square
Long Island City, NY 11101
(718) 340-4558
Ramzi.kassem@law.cuny.edu
Shayana D. Kadidal
Baher Azmy
Center for Constitutional Rights
666 Broadway, 7th Floor
New York, NY 10012
(212) 614-6438
kadidal@ccrjustice.org

